           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   EFFECTIVENESS OF THE YOUNG
   CHILDREN'S EARNINGS RECORDS
     REINSTATEMENT PROCESS

   October 2006   A-03-05-25009




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      October 20, 2006                                                                 Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Effectiveness of the Young Children's Earnings Records Reinstatement Process
           (A-03-05-25009)


           OBJECTIVE

           Our objective was to assess the effectiveness of the Young Children's Earnings Record
           (YCER) reinstatement process in resolving suspended earnings, reducing the size of
           the Earnings Suspense File (ESF), and detecting potential fraud.

           BACKGROUND
           As part of the Annual Wage Reporting process, 1 the Social Security Administration
           (SSA) validates the names and Social Security numbers (SSN) on wage reports
           submitted by employers 2 and self-employment income (SEI) reported by the Internal
                                  3                          4
           Revenue Service (IRS) against the Numident file. Earnings items that cannot be
           matched to SSA records are posted to the ESF—a file of unmatched items. SSA
           maintains two ESFs—one for wages reported by employers and one for SEI reported
           by the IRS. For example, as of October 2005, the wage ESF had accumulated about
           $520 billion in wages and approximately 255 million wage items for Tax Years (TY)
           1937 through 2003 that could not be posted to individuals’ earnings records.


           1
               See 42 U.S.C. § 401(a)(3).
           2
             Each year, employers must send Wage and Tax Statements (Form W-2) to SSA to report the wages and
           taxes of their employees for the previous calendar year. See 20 C.F.R. § 422.114.
           3
             The IRS transmits to SSA self-employment income reported by individuals on their U.S. Individual
           Income Tax Return (Form 1040) and an attached Schedule SE (Self-Employment Tax).
           4
            The Numident includes identifying information (such as name, date of birth, date of death, mother’s
           maiden name, etc.) provided by the applicant on his or her Application for a Social Security Number
           (Form SS-5) for an original SSN and subsequent applications for replacement SSN cards. Each record is
           housed in the Numident master file in SSN order. The Numident official name is the Master Files of Social
           Security Number (SSN) Holders and SSN Applications (SSA/OSR, 60-0058).
Page 2 - The Commissioner


In 1992, SSA began checking the date of birth (DoB) on the Numident for the reported
SSN to determine whether the earnings reported by employers and SEI belong to
         5
children. If the DoB on the Numident indicates that numberholders are under age 7,
their earnings are placed in the ESF and assigned a YCER indicator. The earnings are
saved to an investigate file, which is transmitted to a contractor so notices can be
printed and mailed to employers, employees, or self-employed individuals to assist SSA
with reinstating the earnings. 6

SCOPE AND METHODOLOGY

To meet our objective, we sampled YCER items from the TY 2002 investigate file,
which contained 40,461 earnings items. 7 We selected 300 sample items for review—
250 earnings items where the SSNs appeared 1 to 4 times in the investigate file and
50 SSNs where the SSNs appeared 5 or more times in the investigate file. 8 Below we
focus on the 250 earnings items, ranging between $22 and $71,700, from the total
population of 38,013 earnings items. See Appendix G for the results of our 50 sample
items. 9

RESULTS OF REVIEW

Our review of the TY 2002 YCER investigate file found that while the YCER
reinstatement process was effective in suspending those earnings that appeared
suspect, the process was not effective in resolving and reinstating suspended items to
the correct earnings record. We found that of 250 sample YCER earnings items 10
included in the investigate file, 72 percent were not reinstated to individuals’ earnings
records. The majority of these YCER items appeared to involve potential SSN misuse.
In addition, while SSA reinstated the remaining 28 percent of the earnings items from
the investigate file, our review determined that about one out of four reinstatements
were questionable because they may have also involved potential SSN misuse. As a
result, individuals may use these questionable reinstatements to qualify for future SSA

5
    Program Operations Manual System, RM 03870.065 Earnings Posted to Young Children - General.
6
 See Appendix B for a more detailed description of the YCER process and Appendix C for a copy of a
YCER notice.
7
  See Appendix D for the composition of the TY 2002 investigate file. The TY 2002 YCER investigate file
does not include suspended earnings items associated with SSNs issued to children under age 7 where
the reported name does not match the Numident. For example, we estimate that for TY 2002 the ESF
contained approximately 606,000 children’s SSNs with suspended wages where the reported names did
not match SSA records (see Appendix F).
8
    See Appendix F for more details about the sampling methodology.
9
  We selected 50 of the 409 SSNs associated with 5 or more items. The 409 SSNs were associated with
2,448 items. Our findings related to the 50 sample items were similar to the 250 earnings items and are
included in Appendix G.
10
     Earnings items represent wages reported on W-2s and self-employment income.
Page 3 - The Commissioner


benefits. We also found that 8 of the top 25 employers reporting YCER earnings items
related to industries that do not normally hire children under age 7, such as agriculture
and temporary employment. Furthermore, since SSA’s employee verification services
do not require employers to submit employees’ DoB, employers may not be informed
that the verified SSNs belong to children under age 7.

                         Table 1: Status of the 250 Sample YCER Items
                       Status of YCER Items                     YCER Items         Percent
           Earnings Items Still in Suspense
           -- Items Related to Legitimate Work Activity                    17               7%
           -- Items Related to Potential SSN Misuse                       163              65%
                                                Subtotal                  180              72%
           Reinstated Earnings Items
           -- Valid Reinstatements                                         52             21%
           -- Items Related to Potential SSN Misuse                        18              7%
                                                Subtotal                   70             28%
           Total Sample YCER Items                                        250            100%

UNRESOLVED EARNINGS ITEMS

Our review of 250 sample earnings items totaling approximately $1.3 million in earnings
revealed that 180 of the 250 sample earnings items, or 72 percent, were not reinstated
to numberholders’ earnings records. The suspended earnings items totaled
approximately $1.1 million in earnings. 11 Among the suspended earnings items, we
believe that 9 out of 10 items represent SSN misuse, while the remaining items may
represent legitimate work activity.

Potential SSN Misuse Among Suspended Items

Of the 250 sample earnings items, 180 items had not been resolved and were still in
the ESF. Of these unresolved earnings items, 163 items appeared to involve others
using the numberholders’ SSNs for employment. The 163 items represented
approximately $1 million in earnings. If we project these 163 questionable items to our
population of about 38,000 items, we estimate that approximately 25,000 YCER items
related to about $158 million in earnings involved potential SSN misuse.

The 163 sample items appeared suspect due to the age of the child at the time they
supposedly worked for employers that do not normally hire children under age 7. The
numberholders ranged in age from less than 1 year to 6 years old when they
supposedly worked for employers in industries such as restaurant, construction, and
agriculture. 12 For example, a 2-year old enumerated in 2000 had approximately
$72,000 in earnings reported for TY 2002 from a meat processing company located in
Illinois. The meat processing company had other reporting problems during TY 2002.

11
     These 180 suspended sample items were reported by both employers and self-employed individuals.
12
     In one case, we could not determine the numberholder’s age because the reported SSN was invalid.
Page 4 - The Commissioner


For example, the employer reported 89 wage items to SSA, of which 19 wage items, or
21 percent, were posted to the ESF.

We found employers in the service, temporary employment, restaurant, and
construction industries accounted for the highest number of questionable items as
shown in Figure 1. These employers reported 116 of the 163 questionable items. We
have noted in prior reports that SSN misuse is problematic in these types of industries.
For example in our April 2005 report, we noted SSN misuse was widespread among
                                                                  13
employers in the service, restaurant, and agriculture industries.

                              Figure 1: Employers that Reported 163 Questionable
                                      Unresolved YCER Items by Industry


                                         Hotel
                                         Other
                                 Manufacturing
                                    Agriculture
              Industry




                                         Retail
                                 Food Industry
                                  Construction
                                   Restaurant
                         Temporary Employment
                                       Service

                                                  0   10     20     30    40      50   60
                                                           Number of YCER Items

Moreover, we found that for 30 of the 163 suspended sample items, the reported
names did not appear to be the same person in SSA’s Numident file. 14 We believe
these name discrepancies could indicate that potential SSN misuse was involved.
Although it is possible that someone accidentally used the numberholders’ SSNs, it is
more likely that someone deliberately misused the numberholders’ identity. For the
30 items, we found the following name discrepancies:

        For 28 cases, the first name did not match the Numident records. In 10 of these
         cases, the reported names matched the names of the numberholders’ parents


13
  SSA Office of the Inspector General, Social Security Number Misuse in the Service, Restaurant, and
Agriculture Industries (A-08-05-25023), April 2005.
14
  SSA’s SSN/Name validation routines had determined that these 30 items matched the Numident file for
posting to an earner’s record. SSN/Name Validation performs a series of up to 22 routines, which
manipulates the reported name in various ways. The rules attempt to match the data against the
Numident. Examples of these rules include exchanging the first and last name, and rearranging letters
within the first name and last name independently. The rules are performed on the reported name while
the SSN remains unchanged. The reported name is not altered in any way when validated.
Page 5 - The Commissioner


          shown on the Numident file. Therefore, it is possible that the parents misused
                                                     15
          their own children’s SSNs for employment.
         For 1 case, the first and last name did not match the Numident record.
         For 1 case, the last name did not match the Numident record.

Additional Questionable Earnings Reported by Employers

SSA’s YCER reinstatement process prevented many questionable earnings that may
have related to SSN misuse from being posted to children’s earnings records.
However, when these same children reached age 7 and older, questionable items were
posted to their records. Our review of the SSA Numident showed that 69 of the
163 children with questionable earnings attained age 7 during TYs 2003 or 2004. Of
these 69 numberholders, 19 had questionable earnings successfully posted to their
earnings record by the same employers after they reached age 7.

For example, in TY 2002 a shipping container maintenance and repair company located
in California reported $30,500 for a 6-year old that was not reinstated to the child’s
earnings record. However, in TYs 2003 and 2004, when the child was age 7 and 8, the
company reported $41,000 and $37,000 in earnings that were posted to the child’s
record.

Items Related to Legitimate Work Activity

Of the 180 suspended earnings items, 17 items totaling approximately
$55,000 appeared to relate to legitimate work activity. However, it appears the items
were not reinstated because employers and/or the parents of the numberholders did
not respond to SSA’s YCER notices. Specifically, we found the following:

         For 11 items, employers that appeared to be the parent of the numberholders
          reported the earnings. The Fair Labor Standards Act (FLSA) allows parents to
          hire their children for employment at any age. 16
         For 4 items, SEI was reported for numberholders who had a history of working in
          the entertainment industry.
         For 1 item, a company in the entertainment industry reported the earnings item.
         For 1 item, the earnings item was reported by an Indian tribe that mistakenly
          reported non-employment income on a W-2. This employer realized the mistake
          and submitted a corrected W-2 to resolve the discrepancy.

RESOLVED EARNINGS ITEMS

15
     We provide two such examples in Appendix G.
16
  The FLSA sets the minimum age requirement for employment. Generally, 14 is the minimum age for
most non-agricultural work. There are exceptions to the minimum age requirement such as if a parent
employs his or her child or if the child is an actor or performer. See 29 C.F.R. § 570.2.
Page 6 - The Commissioner


Of the 250 sample items, SSA reinstated 70 earnings items, or 28 percent, totaling
about $202,000 in earnings and posted these earnings to numberholders’ earnings
records. SSA reinstated these items because the employers responded to the YCER
notices, the workers (or their legal guardians) contacted SSA and requested that the
earnings be reinstated, or the earnings were reinstated as part of a special workload
project. Among the 70 reinstated earnings items, 18 items appeared questionable and
may have been related to SSN misuse, while the remaining 52 items appeared to be
validly reinstated YCER items.

Questionable Reinstatements

Of the 70 reinstated items, we found that 18 earnings items totaling approximately
$105,000 in earnings appeared questionable because SSA did not follow appropriate
procedures or the earnings were reported by employers that do not normally hire
children under age 7. If we project the 18 questionable items to the population of about
38,000 items included in the investigate file, we estimate that about 2,700 YCER items
related to approximately $16 million in earnings were questionable reinstatements.

The questionable earnings may be used to determine whether the numberholders
qualify for future Social Security benefits. Additionally, since the numberholders were
children they may not learn about the questionable earnings until they receive their first
annual Social Security Statement at age 25, approximately 19 years after the earnings
are reported to SSA. 17

We found that 15 of the 18 earnings items were reinstated by field offices (FO) and
headquarters staff. 18 We determined that 12 of the 15 questionable items were
                                   19
processed by 2 FOs in Region IX. According to the managers at these FOs, their
staffs were working a special project to reinstate YCER items reported by employers in
the entertainment industry. They agreed that the 12 sample items did not meet that
criterion since the items were reported by employers in the agriculture and construction
industries, or related to unsubstantiated self-employment. For example, SSA reinstated
to a 5-year old’s earnings record about $19,100 in earnings reported in TY 2002 by a
meat processing company located in North Carolina. The company reported
4,306 wage items, of which 1,173 wage items, or 27 percent, were posted to the ESF.
Moreover, 144 of the suspended items for this company had YCER indicators.


17
   Annually SSA mails about 143 million statements to workers who are at least 25-years old and are not
in benefit status. The statements provide workers the ability to determine whether their earnings are
accurately posted to their records.
18
   The remaining three items were reinstated based on employer responses to the YCER notices. All
three employers were in the service industries--one sold seeds, fertilizers, and erosion products; one sold
portable equipment to test water; and one sold and serviced air filters. These companies did not appear
to employ children.
19
  Region IX includes the States of California, Arizona, Nevada, Hawaii, as well as Guam, American
Samoa and the Northern Mariana Islands.
Page 7 - The Commissioner


Furthermore, the managers stated that their FOs may have mistakenly reinstated other
YCER items for TY 2002 as part of the special workload project. For example, one
manager stated that her office reinstated over 500 SEI items for TY 2002. For these
items, the office verified that the reported names matched the Numident, but neither
contacted the numberholders nor a third party to verify that the earnings were valid.
Both managers agreed to locate the other reinstatements and take corrective action,
where appropriate.

Valid Reinstatements

Of the 70 reinstated sample items, 52 items representing $97,000 in earnings appeared
to be valid reinstatements. These items were reported by employers in the
entertainment and retail industries as well as by employers that appeared to be the
parent of the numberholders. For example, a payroll company located in California that
specialized in the entertainment industry reported about $1,000 in TY 2002 for a 6-year
old. The child had an additional $800 in earnings posted to his record for TY 2002 from
three additional payroll companies that specialized in the entertainment industry.
These reinstatements appeared valid because they were reported by employers that
normally hire children under age 7.

TOP EMPLOYERS REPORTING YCER ITEMS

The top 25 employers in the YCER investigate file reported approximately 4,800 YCER
items representing about $12.3 million in earnings that were included in the TY
2002 investigate file. These 25 employers accounted for 12 percent of the YCER items
and about 6 percent of the total earnings. Sixteen of the top employers were in the
entertainment and retail industries and these employers generally hire children in
occupations such as acting and modeling. As noted earlier, one of the employers was
an Indian tribe that mistakenly reported non-employment earnings using Forms
W-2 instead of the Form 1099 Miscellaneous (see Table 2).
         Table 2: Top 25 Employers that Reported YCER Items in TY 2002
                                YCER          Percent of       Number of         Suspended
   Employer Industry            Items        YCER Items        Employers           Wages
 Entertainment                  3,151             66%             13              $4,353,893.89
 Local Government (1)             474             10%              1               1,894,859.40
 Agriculture                      422              9%              4               4,106,104.84
 Temporary employment             407              9%              4               1,304,094.76
 Retail                           328              7%              3                 652,777.24
  Total                         4,782            100(2)           25             $12,311,730.13
Note: (1) This employer was an Indian tribe that mistakenly reported non-employment income on a
      W-2. The employer submitted corrected W-2s to resolve the discrepancies.
      (2) This figure does not total 100 percent due to rounding.

Employers in the agriculture and temporary employment industries would not normally
hire children under age 7. We found that 8 of the 25 top employers were in these two
industries. These eight employers reported 2 percent of the total YCER earnings items
Page 8 - The Commissioner


and about 3 percent of the associated earnings for TY 2002. We contacted the
Employer Service Liaison Officers (ESLO) to confirm whether the eight employers
                                    20
regularly hire children under age 7. Overall, the ESLOs stated it was unlikely that
these employers were employing children. They believe the earnings were probably
reported by numberholders’ family members. Furthermore, the ESLOs were well aware
of the eight employers because these employers appear on the national listing of
employers who submit 100 or more suspended wage items. The list is used by the
ESLOs to contact the employers to assist them with wage reporting problems. The
8 employers would have been included on the listing for TY 2002 because they had
reported 400 to 35,000 suspended items.

Moreover, for three of the eight employers, the YCER items represented at least
2 percent of their reported payroll. We contacted one of the three employers, a poultry
processing company located in North Carolina, and the representative stated that her
company did not employ children. Further, she acknowledged that the company had
received YCER notices and their policy was to provide the requested information that
was included in their payroll records. Lastly, she stated that her company did not
routinely request to review the employee’s Social Security card to verify the SSN
actually belongs to the employee, as instructed in the YCER notice. Therefore, the
company was not complying with SSA’s instructions included in the YCER notices.

USE OF EMPLOYEE VERIFICATION SERVICES

SSA offers several verification services to employers to verify the identity and work
authorization status of their employees. However, since SSA’s employee verification
services do not require employers to submit employees’ dates of birth, employers may
not be informed that the verified SSNs belong to children under age 7. SSA verification
programs include:

        Employer Verification Service (EVS) for Registered Users—an electronic and
         paper-based program available to all employers to ensure their employees
         names and SSNs are valid “before” the employer submits their W-2s to SSA; and




20
  SSA provides assistance to employers through ESLOs located in 10 regions throughout the United
States. The ESLOs (1) answer employers’ questions on wage reporting submissions; (2) encourage
employers to use SSA’s verification programs; (3) conduct wage-reporting seminars, in partnership with
the IRS; and (4) contact employers in their regions with significant suspended wage items.
Page 9 - The Commissioner


          Social Security Number Verification Service (SSNVS)—an online program that
           enables employers and submitters to verify employees’ names and SSNs with
                                         21
           information in SSA’s records.

EVS for Registered Users and SSNVS do not require employers to enter an employee’s
DoB, as it is an optional field. 22 Therefore, employers that only enter the required
information, in this case the name and SSN, would not be timely informed that the
                                                 23
verified SSNs belong to children under age 7. If a YCER indicator was added to the
verification service, employers that used the service could be informed prior to
submitting the earnings items to SSA that the verified SSNs belong to children under
age 7 (whether or not the employer provides a DoB). Moreover, the indicator could be
a useful tool to help reduce the size of the ESF as well as reduce the number of YCER
notices that are generated.

SSA already provides such feedback through a separate verification service. SSA has
a joint effort with the Department of Homeland Security (DHS) to assist employers with
verifying newly-hired employees’ authorization to work in the United States. 24
Employers using the Basic Pilot are more likely to detect that a child’s SSN is being
                                                                 25
misused because the DoB is a required element for verification.

CONCLUSION AND RECOMMENDATIONS

Overall, while the YCER reinstatement process prevented many YCER items that
appeared to involve SSN misuse from being posted to numberholders’ earnings record,
it was not always effective in reinstating YCER items to the correct earnings record.
We also found that about one of four reinstatements appeared questionable.
Furthermore, SSA could improve its employee verification services to notify employers
of potential SSN misuse when they hire individuals using children’s SSNs.

To improve the effectiveness of the YCER process, we recommend SSA:
1.        Review and correct the reinstated earnings that we identified as questionable.



21
     See Appendix H for more details about the employee verification programs.
22
  The employee’s gender is another optional field. For example, if an employer provides the DoB and
gender under the SSNVS program, the Agency may inform the employer that (1) name and DoB match,
gender does not match; (2) name and gender match, DoB does not match; or (3) name matches, DoB
and gender do not match.
23
  As noted earlier, the employer will eventually receive a letter from SSA stating, “Our records show that
the employee is a young child.” See Appendix C for a copy of this letter.
24
     See Appendix H for more details about the employee verification programs.
25
  Employers enter their employees’ information from the DHS-issued Employment Eligibility Verification
Form (Form I-9), which captures the employees' DoBs.
Page 10 - The Commissioner


2.   Ensure SSA staff receives additional guidance and training in the YCER
     reinstatement process to ensure that YCER earnings items are reinstated
     appropriately.
3.   Consistent with the Agency’s disclosure policies, modify EVS for Registered Users
     and SSNVS to detect SSNs for children under age 7 to provide appropriate notice
     to employers and potentially reduce the number of future YCER notices.

AGENCY COMMENTS
SSA concurred with our recommendations. The Agency’s comments are included in
Appendix I.




                                              Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Young Children’s Earnings Record Reinstatement Process

APPENDIX C – Young Children’s Earnings Record Notices Sent to Employers

APPENDIX D – Composition of the Tax Year 2002 Investigate File

APPENDIX E – Scope and Methodology

APPENDIX F – Sampling Methodology

APPENDIX G – Results of 50 Sample Social Security Numbers

APPENDIX H – Employee Verification Programs

APPENDIX I – Agency Comments

APPENDIX J – OIG Contacts and Staff Acknowledgments
                                                           Appendix A
Acronyms
DECOR           Decentralized Correspondence
DHS             Department of Homeland Security
DoB             Date of Birth
ESF             Earnings Suspense File
ESLO            Employer Service Liaison Officer
EVS             Employer Verification Service
FLSA            Fair Labor Standards Act
FO              Field Office
IRS             Internal Revenue Service
MEF             Master Earnings File
SSA             Social Security Administration
SSN             Social Security Number
SSNVS           SSN Verification Service
TY              Tax Year
WBDOC           Wilkes-Barre Data Operations Center
YCER            Young Children’s Earnings Record


Forms/Numbers
Form 1040       U.S. Individual Income Tax Return
Form I-9        Employment Eligibility Verification Form
Form I-94       Arrival/Departure Record
Form SS-5       Application for a Social Security Number
Form W-2        Wage and Tax Statement
Form W-2c       Corrected Wage and Tax Statement
“A” Number      Alien Registration Number
I-94 Number     Arrival/Departure Number
                                                                                  Appendix B
Young Children’s Earnings Record
Reinstatement Process
Effective with the Tax Year (TY) 1991 Annual Wage Reporting process, the Social
Security Administration (SSA) began checking the date of birth (DoB) on the Numident
for the reported Social Security number (SSN). 1 If the DoB indicated that the
numberholder is a child age 6 or younger during the year, the earnings are identified as
a Young Children's Earnings Record (YCER) item and placed into the Earnings
Suspense File (ESF)—a file of unmatched earnings items. The YCER items are saved
to an investigate file used to verify whether the earnings actually belong to the child.

The investigate file is sent to the Wilkes-Barre Data Operation Center (WBDOC) to be
converted to a mailer file and then transmitted to a vendor who generates notices that
are sent to employers, employees, and self-employed individuals. The SSA-L3231
       2
notice is sent to employers requesting identifying information about their employees.
The employer responses are mailed to the WBDOC for review. If the employer states
that the employee’s SSN, name, and DoB agree with SSA’s records, the earnings are
reinstated to the employee’s earnings record. If the employer states the employee’s
name and SSN are the same as SSA’s records, but the DoB is different, a notice
(SSA-L3232) is sent to the employee advising him or her to contact a local SSA field
office (FO) to correct the discrepancy. If the employer does not return the form or
states that the individual was not an employee, a notice is sent to the purported
employee with the earnings, asking him or her to contact a local FO. Unresolved items
remain in the ESF.

If self-employment earnings are reported, a notice (SSA-L3241) is sent to the individual
instructing him or her to contact a local FO. If the self-employed individual contacts an
SSA FO and provides evidence to support that the earnings belong to him or her, the
earnings are removed from the ESF and posted to the person’s earnings record.
Otherwise, the items remain in the ESF.




1
 The Numident includes identifying information (such as name, date of birth, date of death, mother’s
maiden name, etc.) provided by the applicant on his or her Application for a Social Security Number
(Form SS-5) for an original SSN and subsequent applications for replacement SSN cards. Each record is
housed in the Numident master file in SSN order. The Numident official name is the Master Files of Social
Security Number (SSN) Holders and SSN Applications (SSA/OSR, 60-0058).
2
    See Appendix C for copies of the notices.
                                   Appendix C
Young Children’s Earnings Record Notices
Sent to Employers
C-1
C-2
                                                                                 Appendix D
Composition of the Tax Year 2002
Investigate File
The Tax Year (TY) 2002 Young Children’s Earnings Record (YCER) investigate file
                                                                                      1
included 40,461 earnings items representing approximately $219 million in earnings.
The amount of earnings ranged from $.60 to $412,394. 2 Further, the
40,461 suspended earnings items related to 30,102 individuals. We found that
21,977 employers reported 38,615 YCER items and 1,846 items were reported for
self-employed individuals. The number of earnings items reported for each individual
ranged from 1 to 14 earnings items. Ninety-four percent of the individuals had 1 to
4 earnings items posted to the investigate file and 6 percent had 5 to 14 earnings items
posted, as shown in Figure D-1.


                                   Figure D-1: Number of YCER Items
                                       by Individuals in TY 2002

                                         5 or more Items
                               4 Items
                                               6%
                                  5%
                     3 Items
                      10%




                                                                            1 Item
                 2 Items
                      20%                                                     59%




1
  Approximately 38,356 earnings items, or 95 percent, were related to TY 2002. The remaining items
related to prior TYs, beginning with TY 1991.
2
 The $412,394 earnings item was a reporting error. The employer submitted a corrected Wage and Tax
Statement (Form W-2) that showed the earnings should have been $4,123.
                                                                                    Appendix E
Scope and Methodology
To meet our objective, we performed the following steps:

    •   Reviewed prior Social Security Administration (SSA) Office of the Inspector
        General reports related to the Earnings Suspense File (ESF) and inaccurate
        earnings reporting.

    •   Reviewed applicable Federal laws and regulations, as well as SSA policies and
        procedures for maintaining individual earnings records and contacting employers
        with suspended earnings.

    •   Visited the Wilkes-Barre Data Operations Center to perform a walk-through of the
        Young Children's Earnings Record (YCER) reinstatement process and reviewed
        available workload data to determine the overall effectiveness of the YCER
        process.

    •   Obtained and analyzed the Tax Year (TY) 2002 YCER investigate file. The file
        contained 40,461 earnings items totaling about $219 million in earnings. Selected
        two samples from the TY 2002 investigate file for review (see Sampling
        Methodology in Appendix F).

    •   Reviewed SSA’s Numident file, 1 Master Earnings File (MEF), 2 ESF, and Earnings
        Modernization 2.8 program to determine the following:

                  Age of the numberholder;
                  Earnings were reinstated; and
                  Reason for reinstatements.

    •   Selected a random sample of 1,100 items from SSA’s TY 2002 Decentralized
        Correspondence Mailer File, which contained 9,529,889 wage items where the
        names/SSNs on the wage items did not match SSA’s records. We determined
        whether the sample wage items were reported using SSNs assigned to children
        under age 7. Our sample methodology, and projections, can be found in
        Appendix F.

1
 The Numident includes identifying information (such as name, date of birth, date of death, mother’s
maiden name, etc.) provided by the applicant on his or her Application for a Social Security Number (Form
SS-5) for an original SSN and subsequent applications for replacement SSN cards. Each record is
housed in the Numident master file in SSN order. The Numident official name is the Master Files of Social
Security Number (SSN) Holders and SSN Applications (SSA/OSR, 60-0058).
2
 The MEF contains all earnings data reported by employers and self-employed individuals. The data is
used to calculate the Social Security benefits due an individual with an earnings record. The MEF official
name is the Earnings Recording and Self-Employment Income System (SSA/OSR 60-0059).


                                                    E-1
    •   Contacted the regional Employer Service Liaison Officers for information about
        employers that contributed a significant number of items to the YCER investigate
        file. We also contacted a few employers that submitted a significant number of
        YCER items.

    •   Contacted two Field Office managers in Region IX 3 that reinstated a significant
        number of questionable YCER items to determine how these items were
        processed.

    We found that YCER data was sufficiently reliable to meet the objectives of our
    review. Our work was conducted at SSA's Data Operations Center in Wilkes-Barre,
    Pennsylvania, Mid-Atlantic Social Security Center in Philadelphia, Pennsylvania, and
    Headquarters in Baltimore, Maryland. We conducted our fieldwork between January
    2005 and July 2006. The SSA entities responsible for the maintenance of the ESF
    are the Office of Central Operations within the Office of the Deputy Commissioner for
    Operations and the Office of Earnings, Enumeration and Administrative Systems
    within the Office of the Deputy Commissioner for Systems. Our review was
    conducted in accordance with generally accepted government auditing standards.




3
 Region IX includes the States of California, Arizona, Nevada, Hawaii, as well as Guam, American Samoa
and the Northern Mariana Islands.


                                                 E-2
                                                                                Appendix F
Sampling Methodology
Below we provide our projections associated with the Social Security Administration’s
(SSA) Tax Year (TY) 2002 Young Children’s Earnings Record (YCER) investigate file.
We also projected the number of children’s Social Security numbers (SSN) reported to
SSA under a name that does not match SSA’s records. These items were recorded in
the Decentralized Correspondence (DECOR) Mailer File.

Young Children’s Earnings Record
The TY 2002 YCER investigate file contained 40,461 earnings items representing
approximately $219 million in earnings. We divided the population into two groups for
analysis since multiple earnings items were associated with the same SSN. The first
subset represents 38,013 earnings items where the same SSN was associated with
4 or fewer earnings items. We selected for review 250 sample items totaling
$1.3 million in earnings. 1

                                   YCER Projections
        Sample population—Number of YCER items                      38,013
        Sample population—Total YCER earnings                 $211,245,935
        Sample size                                                    250
               Sample Results and Projections – Potential SSN Misuse
                                  Attribute Projection
        Sample cases—Suspended YCER items related to                   163
        potential SSN misuse
        Projection—Suspended YCER items related to potential        24,784
        SSN misuse in the population
        Projection lower limit                                      22,786
        Projection upper limit                                      26,680
                                  Variable Projection
        Sample cases—Suspended YCER earnings related to         $1,037,841
        potential SSN misuse
        Projection—Suspended YCER earnings related to         $157,805,813
        potential SSN misuse in the population
        Projection lower limit                                $124,684,511
        Projection upper limit                                $190,927,116
       Note: The projections were made at a 90-percent confidence level.




1
 We did not project the results of the second subset representing the remaining 2,448 YCER items. See
Appendix G for our findings.


                                                 F-1
              Sample Results and Projections – Questionable Reinstatement
                                   Attribute Projection
           Sample cases—Questionable reinstated items                     18
           Projection—Questionable reinstated items in the             2,737
           population
           Projection lower limit                                      1,791
           Projection upper limit                                      3,984
                                   Variable Projection
           Sample cases—Questionable reinstated YCER earnings       $105,007
           Projection—Questionable reinstated YCER earnings in   $15,966,556
           the population
           Projection lower limit                                 $7,166,141
           Projection upper limit                                $24,766,971
          Note: The projections were made at a 90-percent confidence level.


Decentralized Correspondence

The purpose of the DECOR process is to contact employees and employers to resolve
SSN and/or name discrepancies on wage items stored in the Earnings Suspense File
(ESF). Details related to the suspended wage items are placed within the DECOR
Mailer File, which is sent to a contractor who prints the DECOR letters and mails them
to the appropriate parties. For TY 2002, SSA mailed approximately 9.5 million DECOR
letters, relating to about $60.4 billion in wages, to employees and employers.
Approximately 7.6 million DECOR letters were sent to employees and another
1.9 million letters were sent to employers.

We selected for review 1,100 sample wage items from the TY 2002 DECOR mailer file.
Based on our sample results, we estimate that for TY 2002, the ESF included
approximately 606,000 children’s SSNs with suspended wages where the reported
                                   2
names did not match SSA’s records.




2
    The SSNs were assigned to children under age 7.


                                                      F-2
                          DECOR Projections
Sample population—Number of DECOR wage items                          9,529,889
Sample population—Total DECOR wage amount                           $60.4 billion
Sample size                                                               1,100
                           Attribute Projection
Sample cases—Wage items reported with SSNs                                    70
assigned to children under age 7
Projection—Wage items reported with SSNs assigned                       606,448
to children under age 7 in the population
Projection lower limit                                                  495,132
Projection upper limit                                                  734,662
Note: The projections were made at a 90-percent confidence level.




                                         F-3
                                                                                    Appendix G
Results for 50 Sample Social Security Numbers
We selected for review 50 Social Security numbers (SSN) included in the Tax Year (TY)
2002 Young Children’s Earnings Record (YCER) investigate file that were used to
report 5 to 11 earnings items. The 50 sample SSNs were associated with 308 earnings
items totaling about $928,000. We reviewed these items separately because of the
increased risk of SSN misuse for multiple earnings items reported for children in the
same TY. Of the 50 sample SSNs, we found the following:

Unresolved Items: We found that 38 of the 50 SSNs, or 76 percent, related to
earnings that were not reinstated to the numberholders’ earnings records. These
38 SSNs were associated with 227 earnings items totaling approximately $713,000 in
earnings. We also determined that earnings associated with all 38 SSNs appeared
suspect because of the age of the numberholders at the time they worked for
employers that do not normally hire children under age 7 and the number of earnings
items reported for the same SSN. Although it is possible someone accidentally used
the numberholders’ SSNs for employment, it is more likely that someone deliberately
used the numberholder’s identity for employment.

Resolved Items: The remaining 12 of the 50 SSNs, or 24 percent, related to earnings
reinstated to the earners’ records. The 12 SSNs were associated with 81 earnings
items that had at least 1 item that was reinstated to the numberholder’s earnings
record. In total, there were 32 earnings items reinstated to the numberholders’ earnings
record representing about $100,000 in earnings. The remaining 49 items, totaling
$115,000, were not reinstated. Of the 12 SSNs with 32 reinstated earnings, we found
the following:

       For 9 SSNs associated with 10 earnings items totaling about $28,000, the
        reinstatements appeared questionable based on the age of the numberholders
        at the time they worked for employers that do not normally hire children under
        age 7. These employers were industries such as agriculture, temporary
        employment, restaurant, and food industries.

       For 2 numberholders with 15 items totaling about $61,000 in earnings, the
        numberholders’ parents used their SSNs for employment and then had the
        earnings reinstated to their own earnings account. The 15 earnings items were
        reported for TYs 1991 to 2002. In the first case, both the father and
        numberholder shared the same first and last name. In the second case, the
        father, who was a noncitizen, had earnings reported for TYs 1991 to 1998
        reinstated to his own earnings record after being enumerated in 2002. 1


1
 We reported this issue in a prior audit, Reported Earnings Prior to the Issuance of a Social Security
Number (A-03-04-14037) issued in August 2005.


                                                    G-1
   For 1 numberholder with 7 earnings items totaling about $11,000 it appeared
    that SSA’s SWEEP edit routine erroneously reinstated the earnings to a 3-year
    old’s earnings record. SWEEP is an electronic matching routine that uses name
    changes from the Numident file and additional reinstatements to reinstate items
    from the ESF. In this case, the numberholder’s name did not appear to have
    changed nor were there any items reinstated to the numberholder’s record.




                                       G-2
                                                                                    Appendix H
Employee Verification Programs
The Social Security Administration (SSA) has a number of programs to assist
employers with the wage reporting process. Below we discuss some of the various
programs, such as (1) Employee Verification Service (EVS) for Registered Users,
(2) Social Security Number Verification Service (SSNVS), and (3) the Basic Pilot.

Employee Verification Service and Social Security Number Verification Service

EVS for Registered Users and SSNVS are SSA’s two primary verification programs
made available to employers to verify employees’ names and Social Security numbers
(SSN). EVS and SSNVS are available to employers to ensure their employees’ names
and SSNs are valid before the employer submits their Wage and Tax Statements (Form
            1
W-2) to SSA. Employers must register to gain access to these programs.

Under EVS for Registered Users, requests can be submitted on magnetic media (tape,
                                 2
cartridge, or diskette) or paper. For each employee record to be verified through the
registered user process, employers must submit three required elements: employee’s
SSN, last name, and first name. Employers can also provide optional data as well,
such as date of birth (DoB) and gender. Through EVS, SSA confirms whether the
name, SSN, DoB, and gender of an employee matches SSA’s records. Further, SSA
discloses death responses to employers when the wage earner’s record indicates that
they are deceased. 3
SSNVS, which was implemented nationwide in June 2005, is an online service that
enables employers and submitters to verify whether employees’ names and SSNs
matches the information in SSA’s records. Employers can either verify up to 10 names
and SSNs (per screen) online and receive immediate results or upload batch files of up
to 250,000 names and SSNs and usually receive results the next Government business
day.




1
 The use of these systems is voluntary and can assist employers in eliminating common SSN reporting
errors.
2
 In addition, employers can also verify (1) up to 5 names/SSNs by calling SSA’s toll-free number for
employers and/or (2) up to 50 names/SSNs by sending a fax to an SSA field office.
3
  Section 7213(a)(2) of the Intelligence Reform and Terrorism Prevention Act of 2004, Public Law 108-458
(codified at 42 U.S.C. § 405 note) authorized SSA to add death indicators to all verification routines
determined appropriate, regardless of the prohibition of 42 U.S.C. § 405(r) and effective as of the date of
enactment, December 2004, with certain indicators required within stated time limits.


                                                   H-1
Basic Pilot

The Basic Pilot is an SSA and Department of Homeland Security (DHS) joint program
whereby employers verify the employment eligibility of newly-hired employees. 4 This
voluntary program helps employers determine whether an individual is eligible to work
in the United States. The President signed the Basic Pilot Program Extension and
Expansion Act of 2003 (Public Law Number 108-156) on December 3, 2003. This law
extended the operation of the Basic Pilot for an additional 5 years (to a total of
11 years) and expanded the operation to all 50 States no later than December 1, 2004.

As discussed with SSA staff, the Basic Pilot involves using the information in
Government databases (SSA databases and, if needed, DHS databases) to determine
the employment eligibility of new hires. The SSN and Alien Registration Number
(“A” Number) 5 or I-94 Arrival/Departure Number (I-94 Number) 6 are used for these
checks. The employer must complete the DHS-issued Employment Eligibility
Verification Form (Form I-9) for each employee and then enter elements of this data
into the Basic Pilot system within 3 days of hiring, including the employee’s SSN, name,
DoB, and whether the new hire indicated he/she was a U.S. citizen and, if not, enter the
“A” Number or I-94 Number.

The system first checks the information entered against SSA’s database to verify the
name, SSN, and DoB of all newly-hired employees, regardless of citizenship. When
the Numident shows the U.S. as the place of birth for the newly-hired employee or a
code indicating the number holder is a U.S. citizen, the Basic Pilot automated system
confirms employment eligibility. If the Basic Pilot system cannot confirm employment
eligibility based on the information in SSA’s database or an “A” Number or I-94 Number
was entered, the Basic Pilot system automatically checks the data against DHS’
database.

The employer will receive notification of "SSA tentative non-confirmation" of
employment eligibility when the SSN, name, or DoB does not match the information in
SSA’s database. In addition, employers will receive an "SSA tentative
non-confirmation" if the new hire indicated he/she was a U.S. citizen and SSA’s records
did not show that the person was a U.S. citizen. The employer will receive notification
of "DHS tentative non-confirmation" of employment eligibility when DHS’ database does

4
 Section 401 of the Illegal Immigration Reform and Immigrant Responsibility Act of 1996, Pub. L. No. 104-
208, as amended, 8 U.S.C. § 1324a note.
5
  The “A” number is the 9-digit number following “A” which is shown on the “green card” or Permanent
Resident Card (formerly the I-551 Alien Registration Receipt Card), the Employment Authorization
Document (I-766 and I-688B), and on certain other immigration documents and notices. For newly
admitted immigrants, the “A” number is shown on the machine-readable immigrant visa affixed to the
foreign passport.
6
 The I-94 Number is the 11-digit number located on the Arrival-Departure Record (Form I-94). The
Form I-94 shows the date the individual arrived in the United States, the “Admitted Until” date, and the
date when his/her authorized period of stay expires.


                                                    H-2
not show the new hire as authorized for employment. In these cases, the employer
asks the employee whether he/she wishes to contest the tentative non-confirmation. If
contested, the employee must contact SSA or DHS within 8 Government working days
of the notification. After the employee contacts SSA or DHS to correct the record, the
employer resubmits the query through the Basic Pilot system. If the system does not
confirm employment eligibility after the employer resubmits the query, the employer
may terminate the new hire.




                                          H-3
                  Appendix I
Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      September 26, 2006                                                   Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Effectiveness of the Young Children’s
           Earnings Records Reinstatement Process” (A-03-05-25009)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report’s
           recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         I-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “EFFECTIVENESS OF THE YOUNG CHILDREN’S EARNINGS RECORDS
REINSTATEMENT PROCESS” (A-03-05-25009)

Thank you for the opportunity to review and provide comments on this draft report.

Recommendation 1

Review and correct the reinstated earnings that OIG identified as questionable.

Comment

We agree. We will review the cases identified and take the necessary corrective actions within 6
months of receipt of the records.

Recommendation 2

Ensure SSA staff receives additional guidance and training in the Young Children’s Earnings
Record (YCER) reinstatement process to ensure that YCER earnings items are reinstated
appropriately.

Comment

We agree. We will issue a reminder to staff responsible for reinstating YCER items. The
reminder will include the proper procedures to be followed when processing a YCER case and
should be released by the end of calendar year 2006.

Recommendation 3

Consistent with the Agency’s disclosure policies, modify the Employer Verification Service for
Registered Users and the Social Security Number (SSN) Verification Service to detect SSNs for
children under age 7 to provide appropriate notice to employers and potentially reduce the
number of future YCER notices.

Comment

We agree. The Agency’s current disclosure policy would allow for the date of birth information
to be shared with employers consistent with their wage reporting responsibilities. We will
consider the cost effectiveness of systematic changes based on other pending stewardship-related
activities.




                                               I-2
                                                                     Appendix J
OIG Contacts and Staff Acknowledgments
OIG Contacts
   Walter Bayer, Director, Philadelphia Audit Division, (215) 597-4080

   Cylinda McCloud-Keal, Audit Manager, (215) 597-0572

Staff Acknowledgments
In addition to those named above:

   Mildred Soto, Auditor-in-Charge

   Damon Mahoner, Auditor

   Frank Trzaska, Senior Auditor

   Richard Devers, IT Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number A-03-05-
25009.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
